COUNTY ATTORNEY
Christine M. Beck
PO Box 1110
Tampa, FL 33601-1110
(813) 272-5670 | Fax: (813) 272-5231

September 20, 2021

BOARD OF COUNTY COMMISSIONERS
Pat Kemp, Chair
Kimberly Overman, Vice Chair
Stacy R. White, Chaplain
Harry Cohen
Ken Hagan
Gwendolyn “Gwen” Myers
Mariella Smith
COUNTY ATTORNEY
Christine M. Beck
DEPUTY COUNTY ATTORNEY
/GENERAL COUNSEL
Mary Helen Farris
CHIEF ADMINISTRATIVE
COUNSEL
Hank Ennis
CHIEF ASSISTANT
COUNTY ATTORNEYS
Robert E. Brazel
DeBora Cromartie-Mincey
Richard T. Tschantz
Samuel S. Hamilton

Clerk of the Court
United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543-0001
Re:

Jacquelyn Bouazizi v. Hillsborough County Civil Service Board and Hillsborough County
U.S. Supreme Court Case No. 21-315
Motion for Extension of Time to File Response to Petition for Writ of Certiorari

Dear Sir or Madam:
The undersigned Counsel represents Respondent Hillsborough County in the referenced
action that is before this Court. Pursuant to Rule 30.4 of the Rules of the Supreme Court of the
United States, Hillsborough County is respectfully requesting a sixty (60) day extension up to and
including November 29, 2021, in which to file its response to the Petition for Writ of Certiorari.
The Petition was placed on this Court’s docket on August 31, 2021, and a response is currently
due September 30, 2021. This extension is being requested ten days prior to the deadline.
On January 29, 2021, the Eleventh Circuit Court of Appeals issued its Order affirming the
decision of the United States District Court, Middle District of Florida. Plaintiff did not file her
Petition for Writ of Certiorari until August 26, 2021, seven months after the Eleventh Circuit’s
Order. Thus, this Petition was unexpected.
Counsel for Hillsborough County has been inundated with a heavy caseload, which
includes numerous mediations, depositions and discovery deadlines that are currently scheduled
for the months of September and October. Co-Respondent Hillsborough County Civil Service
Board has also requested a 60-day extension of time so no prejudice will result to the Petitioner
by granting this request.

HCFLGOV.NET

September 20, 2021
Page 2

Therefore, Hillsborough County respectfully requests an extension of 60 days, up to and
including November 29, 2021, for which to file its response to the Petition.
Thank you for your kind consideration in this regard. Should you have any questions or
require further information, please contact me.
Respectfully,

Stephen M. Todd
Stephen M. Todd, Esquire
Senior Assistant County Attorney

I HEREBY CERTIFY that on September 20, 2021, the foregoing was electronically filed with
the Court and that copies were generated electronically to Counsel of Record and to Pro Se
Petitioner, Jacquelyn Bouazizi.

s/ Stephen M. Todd
Stephen M. Todd, Esquire
Senior Assistant County Attorney

